                            SENSITIVE BUT UNCLASSIFIED

                                                         United States Department of State
                                                         and the Broadcasting Board of Governors

                                                         Office   0/ Inspector General
                                                          AUG 29 2011

MEMORANDUM

TO:            M - Patrick F. Kennedy, Under Secretary for Management
               DS - Eric J. Boswell, Assistant Secretary for Diplomatic S;J)eurit
                                                                        //1
FROM:          OIG - Harold W. Geisel, Deputy Inspector General            ! '
SUBJECT:                                                                               630
               Memorandum Report - Automated Security Clearance Verification, ISP-1-11-64

Executive Summary

        The absence of an automated security clearance verification system to facilitate timely
visitor access to official U.S. domestic and overseas facilities worldwide causes frustration
among mission staff and visitors alike and results in significant losses in productivity. The
variety of visitors to official U.S. domestic and overseas facilities , including Department of State
(Depar1ment) temporary duty employees , contractors, and other U.S . government agency
officials, coupled with the Depar1ment's existing manual and multipart clearance verification
system, puts the burden of clearance verification on already overstretched regional security
officers and their staff. While this misplaced burden is especially difficult for diplomatic posts
with a high volume of visitors, all posts are affected . The Depal1ment is aware of and working to
address this complicated issue, but several actions are required to overcome existing
inefficiencies.

Purpose and Scope

        The Office oflnspector General noted problems with the Depal1ment's clearance
verification processes during two recent inspections, highlighting the worldwide implications of
the issue. The purpose of this report is to identify possible solutions for improving the current
clearance validation process, including reviewing ongoing initiatives and existing network
applications that could provide a platform for an automated approach to security clearance
verification.

Summary of Findings

Although the Depar1ment's security clearance verification system is generally effective, the
current manual processes do not fully take advantage of available technologies. Multiple
clearance processes, used to accommodate a variety of employees, and broad human
involvement make the system inefficient. The Depal1ment has known about this problem for




                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



some time and discussed the possibility of automating the clearance verification process before
the deployment of the eCountry Clearance (eCC) application; however, stakeholder agreement
could not be reached on this to ic. (b) (5)



        In an attempt to consolidate and automate several processes, the Bureau of Diplomatic
Security (DS) has hired a full-time project manager and is developing a new comprehensive
application called the Security and Suitability Management System (S2MS), which will
completely or partially replace several of the Department's current security-related applications,
including the Case Management System, the Visitor Security Clearance Tracking System, the
Visitor Access Request System, and the Report Management System.

        One small but critical element of this forward-leaning initiative is automated security
clearance verification. To realize a system that would deliver such benefits, DS first needed to
find a way to link multiple national clearance databases, such as the Department of Defense-
owned Joint Personnel Adjudications System and the Office of Personnel Management-owned
Clearance Verification System, to a computer application resident on Department systems. DS's
preferred solution is the eCC application. With certain modifications, the eCC application can
provide valid security clearance verification through interfaces with myriad clearance databases
that will eventually be linked to the S2MS . Once these modifications and interfaces are
complete, the Department can realize automated security clearance verification for the vast
majority of visitors to official U.S. domestic and overseas facilities. Access requests for
contractors, however, will require additional steps by DS's Industrial Security Division prior to
their approval in the eCC application.

        Because of its comprehensive connectivity, this new approach should provide the
capability to service nearly all visitor requests, regardless of employer or employment status
(Department, Department of Defense, Department of Justice, contractors, etc.), and will
significantly reduce the need for direct human involvement in the security clearance verification
process. The security clearance-related field in eCC will be autopopulated by anyone of a
number of linked U.S. Goverrunent databases, providing posts with immediate clearance
verification alo with all other       uired visitor access data. (b) (5)
(b) (5)
(b) (5)                                                   onnectmg to
               wever,                     ureau     nvestigation updates its current systems in
2014. Until all agencies can be interfaced with S2MS, DS will maintain an abbreviated manual
clearance verification system for the Federal Bureau of Investigation and any other unique
organizations. A formal agreement among all participating agencies with regard to
intragoverrunent connectivity will ensure the integrity of Department systems and is included in
DS's future plans.

       The Under Secretary for Management has already provided funding for S2MS and the
DS-led project is under way with an anticipated completion date of November 2012.
Discussions between DS and the Office of Management Policy, Rightsizing and Innovation are
ongoing to flesh out modifications required for the eCC application. As part of the eCC process,




                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



near-term changes will force travelers to provide valid security clearance verification through the
OS certification unit before country clearance is approved , relieving regional security officers
and their staff of the time-consuming process of verifying employee clearances. The Office of
Management Policy, Rightsizing, and Innovation has agreed to fund the initial changes. The
long-term modifications in eCC will include linking the application to S2MS (when it is
available), making security clearance verification seamless for the majority of visitors. OS is
expected to provide funding for the long-term modifications to eCC. Although eCC is already
authorized to store personally identifiable information (in accordance with the E-Government
Act of2002, Pub. L. No. 107-347, section 208), privacy provisions and security controls will
need to be included in any modification to ensure the protection of employee social security
numbers and dates of birth.

        OS ' s decision to invest in the S2MS project was intuitive and bold. By all indications,
this new approach is in concert with White House guidance to streamline government systems
while eliminating duplicative processes. The Department expects staff reductions as a result of
removing the need for direct human involvement in security clearance validation. The
Department, and potentially all of government, stands to benefit from this well-thought-out
solution.




                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED




Formal Recommendations

Recommendation 1: The Bureau of Diplomatic Security should secure memoranda of
agreement with all non-Depat1ment government agencies expected to link to the Security and
Suitability Management System. (Action: DS)

Recommendation 2: The Office of Management Policy, Rightsizing, and llU1ovation, in
coordination with the Bureau of Diplomatic Security, should require that planned modifications
in the eCountry Clearance application include security controls that provide adequate protection
of employee personally identifiable information. (Action: M /PRI , in coordination with DS)

Recommendation 3: The Office of Management Policy, Rightsizing, and llU1ovation, in
coordination with the Bureau of Diplomatic Security, should complete the plalU1ed shot1-term
modifications in the eCountry Clearance application by December 2011. (Action: M/PRI , in
coordination with DS)

Recommendation 4: The Office of Management Policy, Rightsizing, and llU1ovation, in
coordination with the Bureau of Diplomatic Security, should complete the planned long-term
modifications in eCountry Clearance, including an interface to the Security and Suitability
Management System, by August 2012. (Action: M/PRI, in coordination with DS)


          (b) (6)
(b) (6)


Enclosures:
       Compliance Information and Instruction Sheet




                           SENSITIVE BUT UNCLASSIFIED
